TN

C@OQCKLE

Le al Brie fs E-Mail Address:
8 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-1184

NIKKI BRUNI, JULIE COSENTINO;
CYNTHIA RINALDI; KATHLEEN LASLOW;
AND PATRICK MALLEY,
Petitioners,

v.
CITY OF PITTSBURGH; PITTSBURGH CITY COUNCIL;
AND MAYOR OF PITTSBURGH,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 29th day of April, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE ELEANOR MCCULLEN IN
SUPPORT OF PETITIONERS in the above entitled case, All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
EDWARD M. WENGER 119 South Monroe Street,
Counsel of Record Suite 300
GARY V. PERKO Tallahassee, FL 32301

MOHAMMAD 0. JAZIL

(954) 661-5075

edw@hgslaw.com

Counsel for Amicus Curiae
Eleanor McCullen

Subscribed and sworn to before me this 29th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

perme | Kence, 0. Dhros’ Ondineh, Ohl

Notary Public Affiant

My Comm. Exp. September &, 2023

 

 
SERVICE LIST

John J. Bursch

Alliance Defending Freedom
440 First Street NW

Suite 600

Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org
Counsel for Petitioners

Julie E. Koren

City of Pittsburgh

Department of Law

414 Grant Street

313 City County Building
Pittsburgh, PA 15219

Direct: 412-255-2032

Email: julie.koren@pittsburghpa.gov
Counsel for Respondents
